<html>
<title> - FISCAL YEAR 2007 COAST GUARD AUTHORIZING LEGISLATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]






          FISCAL YEAR 2007 COAST GUARD AUTHORIZING LEGISLATION

=======================================================================

                                (109-81)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure










                    U.S. GOVERNMENT PRINTING OFFICE

30-651 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)





















        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,Vice-  California
Chair                                MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)






















                                CONTENTS

                               TESTIMONY

                                                                   Page
 Baumgartner, Rear Admiral William D., Judge Advocate General, 
  U.S. Coast Guard...............................................     8
 Nordquist, Professor Myron H., Center for Oceans Law and Policy, 
  University of Virginia School of Law...........................    26
 Stevenson, Douglas B., Director, Center for Seafarers' Rights of 
  Seamen's Church Institute of New York and New Jersey...........    26

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Filner, Hon. Bob, of California..................................    47
LoBiondo, Hon. Frank A., of New Jersey...........................    49
Oberstar, Hon. James L., of Minnesota............................    62
Young, Hon. Don, of Alaska.......................................    77

             PREPARED STATEMENTS SUBMITTED BY THE WITNESSES

 Baumgartner, Rear Admiral William D.............................    42
 Nordquist, Professor Myron H....................................    50
 Stevenson, Douglas B............................................    65

                       SUBMISSIONS FOR THE RECORD

 Baumgartner, Rear Admiral William D., Judge Advocate General, 
  U.S. Coast Guard:
  Response to a question from Rep. Oberstar concerning authorized 
    strength and current levels..................................    13
  Response to a question fron Rep. Oberstar concerning types of 
    data gathered by UAVs........................................    15
  Response to a question from Rep. Coble concerning overall 
    enlisted and officer strength................................    18

                         ADDITION TO THE RECORD

Reserve Officers Association of the United States, statement.....    78






















 
          FISCAL YEAR 2007 COAST GUARD AUTHORIZING LEGISLATION

                              ----------                              


                         Tuesday, June 20, 2006

        House of Representatives, Subcommittee on Coast 
            Guard and Maritime Transportation, Committee on 
            Transportation and Infrastructure, Washington, 
            D.C.
    The subcommittee met, pursuant to call, at 2:35 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo [Chairman of the subcommittee] Presiding.
    Mr. LoBiondo. The Subcommittee on Coast Guard and Maritime 
Transportation will come to order. Today the subcommittee is 
meeting to review the discussion draft of the Coast Guard 
Authorization Act of 2006, but we are very pleased that the 
Chairman of the full committee, Chairman Young, is here; and I 
am going to defer an opening statement to allow Chairman Young 
to have this time.
    Mr. Chairman.
    Mr. Young. I thank you and I do apologize to my good Coast 
Guard people who are sitting at the table, but I have an 
opening statement and I will have to leave.
    I want to thank you, Mr. Chairman for having this important 
hearing of the Reauthorization Act of 2006. And for those in 
the room, we will finish 2005 sometime, hopefully, this week or 
next week. This is a constant battle but we will get it done. 
But I think it is vitally important we go forward with 2006. 
This bill does provide a funding level that will give the Coast 
Guard the resources it needs to carry out what we have charged 
them with, not only in its traditional missions but its new 
homeland security missions.
    As we saw last summer, the Coast Guard provides vital 
services. We all know that. I am extremely pleased with what 
they have been able to do in Alaska, and I am very pleased to 
say that we will continue that effort.
    The second panel--and this is one thing I am very 
interested in discussing, whether to set limits on the 
currently open-ended penalty for incorrect payment of seamen's 
wages.
    I would like to say one thing that the witnesses will be 
testifying, and I know what they will be testifying to because 
actually I read part of it. This wage statute was first passed 
in 1790. It was last admitted in 1915. In 1790 it was only 12 
years after Captain Cook explored much of my home State for the 
first time. In 1790 the voyages could last for years; and once 
a vessel was gone from port, remedies against the owner were 
impossible to enforce. Therefore, a severe and immediate and 
flexible penalty was more than warranted.
    In 1915, only 3 years after the Titanic sank in the frigid 
North Atlantic, sending 1,523 passengers and crew to their 
deaths, given the communications technology available in the 
second half of the 18th century, it was years after Captain 
Cook's voyages ended that the world learned of his discoveries. 
Only after the publications of his journals did they find out.
    For those in the room who are under 30, it may be a shock 
today that Captain Cook neither blogged nor glogged nor Podcast 
from his flagship, the Endeavor. Likewise, had communication 
technologies available today been available in 1912, rescue 
vessels would have likely arrived to save virtually those all 
that perished on the Titanic.
    So my question to the witnesses would be: In light of the 
communication revolution that has occurred in the total global 
climate--I say "total" because even India has better 
communication than we do in many areas, as well as Indonesia 
and, as well as of course, China--the ability to track vessels 
and their corporate owners and the ease of travel around the 
world, I think it is possible to update a law that was first 
passed before Nelson defeated Napoleon at Trafalgar to reflect 
the technology available to today's seaman.
    So for the second panel I hope that you address that issue 
because, Mr. Chairman, it is crucially important that although 
some will say this is to protect the seamen--and I understand 
that, I want to protect the seamen because I am a licensed 
mariner and I will continue to do that--but there is a 
possibility that this law should be revived and studied and, to 
the extent revived, to allow I believe a proper solution to a 
very serious problem.
    I have done a little research and I think we have one case 
where there was a technical error of payment to a seamen of 
$20, but it compounded over approximately 10 years and for some 
reason it was not disclosed, and it ended up being a $400,000 
or better penalty against the owners, which they never realized 
was $20. And for you trial lawyers in the room, shame on you. 
This was not the intent of the law. It was to protect the 
vessels, owners, and the seamen, not to be used as a tool by a 
group of trial lawyers to make money. And that is how it is 
being used today.
    Mr. Chairman, I am advising you that it is my intent that I 
am trying to make sure that this is adjusted and made more 
reliable in today's modern communications so that we will have 
a "yes" in an attempt to protect the seamen, but not be taken 
advantage of or advantage of the owner of vessel.
    Mr. Chairman, I yield back the balance of my time.
    Mr. LoBiondo. Thank you, Chairman Young.
    I ask unanimous consent that Mrs. Kelly be allowed to sit 
as part of this committee for this hearing today. So ordered.
    Again, the subcommittee is here to review a discussion 
draft of the Coast Guard Authorization Act of 2006.
    This hearing will give all the members of the subcommittee 
an opportunity to consider the authorized funding levels and 
the legislative language that is included in this draft bill. 
The draft bill would authorize nearly $8.3 billion in funding 
for the Coast Guard's fiscal year 2007. This authorization 
includes funding to support each of the Coast Guard's important 
missions.
    For purposes of the discussion, the draft bill would 
authorize $1.1 billion for the Coast Guard's integrated 
deepwater program. Deepwater will result in the complete 
recapitalization of the Coast Guard's vessels, aircraft, and 
associated communications and control systems. Because the 
Coast Guard has been tasked with increased responsibilities 
following September 11, the service's legacy fleet of vessels 
and aircraft are deteriorating at an alarming rate. As I have 
in previous years, I intend to support an increase in the 
authorized funding level for the deepwater program as this bill 
moves forward. Additional funding is necessary to accelerate 
the production of new deepwater assets and to sustain the 
service's existing legacy assets.
    I cannot overestimate my concern with the pace of the 
deepwater program. Each day the men and women of the Coast 
Guard are faced with the possibility of a major asset failure 
that puts the safety of the personnel and the success of their 
missions in jeopardy. I am particularly concerned about the 
service's 110-foot patrol boat class which continues to suffer 
from hull breaches and unexpected maintenance needs. First, the 
Coast Guard planned to convert the remaining 100-foot patrol 
boats by lengthening the hulls and improving the electronic and 
communication systems that have become outdated. Following 
construction, however, the Coast Guard realized that the 123-
foot converted boats were plagued with design programs and, as 
a result, the conversion program has been terminated.
    To address the increasing gap in patrol boat readiness, the 
Coast Guard then proposed to accelerate construction of the 
Fast Response Cutter. Just a few months ago, however, the Coast 
Guard postponed construction and acquisition of the Fast 
Response Cutter due to concerns about the vessel's proposed 
design.
    I am deeply concerned by these problems and, as a result, I 
would urge the Coast Guard to move quickly to identify an 
available design to replace the 110-foot patrol boat class. We 
must complete this program with all deliberate speed. I urge my 
colleagues to support funding levels that will not only allow 
the Coast Guard to acquire the assets they need, but would 
allow the program to be accelerated and brought on line over 
the next 15 years rather than the 25 years of the revised plan.
    In addition to the authorization of the fiscal year 2007 
funding, the draft bill proposes to make several amendments to 
current law. For example, the bill contains a proposal that 
would amend the Maritime Drug Law Enforcement Act to establish 
a civil penalty for individuals who possess personal use 
quantities of narcotics on a vessel or at a maritime facility. 
Drug use on vessels can have a deadly consequence, and this 
provision will give the Coast Guard another tool to help keep 
our waterways safe.
    This hearing on the draft bill is the first step in the 
process to develop a bill that takes a balanced approach to 
providing the resources and authorities necessary to support 
each of the Coast Guard's many and varied missions.
    I want to take this time to again commend the men and women 
of the Coast Guard for their hard work and self-sacrifice. I 
want to thank the witnesses for being here this afternoon. We 
look forward to their testimony.
    Now I turn to Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman, and thank you for this 
hearing today. I know you are trying to mark up the legislation 
this week, and the full committee soon after that. So we have a 
lot of things to work out.
    The seamen's wage penalty statute--because, as the Chairman 
stated, it was enacted in the very first Congress in 1790. I 
asked the staff if the Chairman was here for that.
    Mr. LoBiondo. I think Mr. Oberstar was.
    Mr. Filner. LoBiondo, you are getting better over the 
years.
    Mr. LoBiondo. Work with me.
    Mr. Filner. It is my understanding that in 2003, Royal 
Caribbean Cruises--oh, right on schedule.
    Mr. LoBiondo. We were just praising you, Mr. Oberstar.
    Mr. Oberstar. I thought so.
    Mr. Filner. Your ears were burning. We wanted to get some 
personal testimony on the first Congress as it passed the 
seamen's wage penalty statute, so I know you will do that for 
us.
    Mr. Oberstar. I was probably there.
    Mr. Filner. It is my understanding that in 2003 Royal 
Caribbean Cruises reached a settlement agreement for unpaid 
overtime wage claims for over $18 million, and a few years 
later Norweigian Cruise Lines reached a settlement agreement 
for similar unpaid wage claims for approximately $25 million. 
Now it seems that the cruise lines are seeking to have the Wage 
Penalty Act changed to decrease the chances of them ever being 
penalized if they fail to pay the wages due without sufficient 
cause.
    So I am looking forward to today's hearing. It is 
unfortunate that the cruise line industry is not participating 
in these hearings so that the subcommittee can get the 
information it needs before deciding on whether or not to 
change this statute.
    Thank you, Mr. Chairman for scheduling this hearing. I look 
forward to working with you.
    Mr. LoBiondo. Thank you.
    Mr. Simmons.
    Mr. Simmons. Thank you, Mr. Chairman. I have reviewed the 
document that we are discussing here today. I am particularly 
interested in the provision on the possible movement of the 
Coast Guard Band and the 180-day notice which I think is very 
appropriate. I know that members of the band live very happily 
in my district, and the idea that we move the band to some 
other location would be a matter of concern to them. So I think 
it is important that we provide those individuals with that 
protection.
    I am also very interested in section 401 which authorizes 
$3 million to improve the boarding team communications. That 
has been an issue that has been under review by the Coast Guard 
R&D Center. They have some very interesting new protections, 
new technology which helps protect our "coasties" as they board 
vessels. And I think that is a very positive development.
    Mr. Chairman, I do intend tomorrow to offer an amendment on 
the issue that has occupied the attention of the Coast Guard 
Academy, the issue of sexual harassment and violence. What I 
intend to do is offer an amendment that would require the Coast 
Guard Academy to adhere to the same requirements that apply to 
other service academies.
    I would be interested if our witness has any comments on 
that, but I feel it is appropriate that the service academies 
have a uniform approach to this important issue, which is why I 
would be interested in conforming the Coast Guard Academy to 
the other service academies on this subject. That being said, 
Mr. Chairman, I yield back the balance of my time.
    Mr. LoBiondo. Thank you Mr. Simmons.
    Mr. Oberstar, thank you for joining us.
    Mr. Oberstar. Well, it is always a pleasure to be with you, 
Mr. Chairman. And I appreciate the cooperation of the full 
committee chairman, Mr. Young, and you in scheduling this 
hearing after the issue--one of the key issues, but the 
fundamental issue of this markup hearing today and the markup 
to follow is that of seamen's wages. And at the time, I said we 
had not had hearings on the matter, we ought to explore the 
issue in full open committee hearing. We will have that 
opportunity today; although I note--with Mr. Filner--with 
regret that the cruise lines are not here since they are the 
principal focus of concern.
    There are a number of issues that I will want to explore 
with witnesses. First is a proposal to change the penalty as it 
applies to foreign flag cruise ships operating out of U.S. 
Ports, requiring the seafarer to prove that the employer did 
not have sufficient cause to pay him. I think that could be a 
very serious, even insurmountable obstacle.
    To notify an employer of errors in the paycheck within 180 
days--180 days might seem to be a reasonable amount of time, 
but when you have language barriers, when you have displacement 
circumstances, and the person does not have all the facts at 
hand, it becomes very difficult to obtain the information with 
which the seafarer must make his case.
    Allowing--sort of allowing in quotes, the seamen to pay for 
his own health insurance. Courts have held that the vessel 
owner is liable to pay for maintenance and cure in the quaint 
ancient term of art.
    Authorizing pay to be electronically deposited. That is 
something we can discuss on how that will be accomplished and 
what way will it be done. I think that is a matter that 
probably can be worked out. But of concern to me is that the 
proposal to let the vessel owner have 4 days after the seamen 
is discharged to pay what he has earned, even though the person 
may well be in some godforsaken country far from our shores and 
far from that vessel by the time those 4 days are up.
    How do you obtain justice? It virtually eliminates the 
possibility of class action suit in this discussion draft, and 
it allows shipowners who intentionally defraud a seaman of his 
wages to avoid paying them, even if the seaman does not catch 
up with that fraud within 30 days after discharge.
    Now it can be argued, as some have, that this set of laws 
under which ships operate today was written in an earlier era. 
Well, it was written 220 years ago. But many of the 
circumstances have not changed greatly from the time of sailing 
vessels and wooden hulls. So I just want to see what 
justification there is for these changes, and, more 
importantly, what the consequences are for the person, for the 
individual. Even though circumstances have changed greatly, 
ships are fast, iron hulls, steel hulls and electronics and all 
the rest, you still have operators who are not playing it 
straight. And in the end, I know from my recollection of miners 
working in the underground iron ore mines, they were exploited 
until we had a union. And only with the union were we able to 
get justice.
    And before we change a law that has operated for a very 
long time in the favor of the worker who makes the vessel 
possible, we have to be very, very sure that we are doing the 
right thing for the one who puts himself at risk.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Oberstar.
    Mr. Diaz-Balart, do you have any opening statement?
    Mr. Diaz-Balart. No, thank you.
    Mr. LoBiondo. Mr. Fortuno.
    Mr. Fortuno. No.
    Mr. LoBiondo. Mr. Baird.
    Mr. Baird. I just have a very brief opening statement, but 
really on more of a personal matter. Two weeks ago one of my 
staff members lost her son in a boating accident off the coast 
of California, and I just want to thank the Coast Guard for 
their prompt response, professionalism. They cared for the 
family, and you folks did everything you could to save this 
young man, and I am extremely grateful and I want to express 
that on behalf of my staff and their family. Thank you.
    Mr. LoBiondo. Mrs. Kelly.
    Mrs. Kelly. Thank you. We forget that so much of the 
mission of the Coast Guard is helping people in distress and 
for that all of us need to be grateful and thankful.
    Chairman LoBiondo, last month before the hearing before the 
subcommittee, Rear Admiral Joseph Nimick, a colleague of 
today's distinguished witness, Admiral Baumgartner, 
acknowledged that the vessels currently supplied by the Coast 
Guard to protect the nuclear facility along the Hudson River in 
my district are inadequate to intercept and destroy waterborne 
threats. This appears to be true for all U.S. Nuclear 
facilities that lie along navigable waters, not just the one 
that lies 25 miles north of New York City.
    I introduced legislation to fix this glaring gap in our 
Nation's security chain just last week. My bill, which is H.R. 
5614, would make the Coast Guard the lead Federal agency for 
naval defense of U.S. Nuclear facilities on navigable 
waterways. As I have said in previous hearings before this 
subcommittee, a tugboat with no fixed armament and weekly 
flyover do not adequately address the threat to a nuclear 
facility in the middle of the Nation's top terror target.
    While in New York, we maintain an added layer of protection 
from the New York State Naval Militia. These are brave 
volunteers who are underequipped and lack the proper authority 
to interdict in the face of danger. My bill would require the 
Coast Guard to provide weaponry on board of such security 
vessels capable of intercepting and destroying potential 
threats. The tugboat class vessels currently provided lack 
capable hardware.
    Finally, my bill would allow the Coast Guard Commandant to 
work with the Energy Department to determine what facilities 
are at greatest risk, what those risks are, and how they can 
best be addressed.
    Chairman LoBiondo, Admiral Baumgartner, I recognize these 
are new tasks and they would require increased investment on 
the part of Congress in the Coast Guard and in the Coast Guard 
capabilities. But I have long been a supporter of the deepwater 
program. I remain committed to obtaining the resources 
necessary for the Coast Guard to carry out these functions, and 
I and my constituents feel these are vital to the national 
security. I hope that as the reauthorization moves forward, I 
will be able to work with you, Chairman LoBiondo and Chairman 
Young, and others in incorporating this legislation into the 
reauthorization of this act.
    I strongly support the Coast Guard. I am most appreciative 
of everything the Coast Guard does to keep us all safe in 
navigable waters, and I thank you, Rear Admiral Baumgartner, 
for coming and talking to us today.
    Mr. Chairman, I yield back the balance of my time.
    Mr. LoBiondo. Thank you.
    Ms. Brown, do you have an opening statement?
    Ms. Brown. Thank you. I wanted to thank the Chairman and 
the Ranking Member for holding today's hearing on the Coast 
Guard. The Coast Guard has been protecting our shores for more 
than 200 years and they have done an outstanding job.
    The Coast Guard was the first agency--and I often point 
that out--to react to the terrorist attack of September 11, and 
was the only agency in the Bush administration to actually do 
their jobs during Hurricane Katrina. But we know that they also 
get caught up in red tape in the Department of Homeland 
Security, and we need to keep the Department's feet to the fire 
so they do not stand in the way of the Coast Guard's mission.
    This year's reauthorization includes several provisions 
that are extremely important to the cruise industry, which has 
a $13 billion impact on my home State of Florida. These 
important changes in the wage, penalties, and cash payment 
provisions bring those maritime laws into the modern era and 
recognize the major changes that have taken place in employee 
rights and modern thinking. The wage penalty change provides an 
element of fairness for both the cruise industry and their 
workers by ensuring that seamen get their full pay, while 
protecting their employees from unfair penalties.
    The direct deposit provision provides additional banking 
options, saving seamen money that should be going to their 
families. Each payday, these employees are forced to pay 
Western Union hundreds of their hard-earned dollars just so 
they can send their paychecks back home. It also adds a new 
level of security by removing the temptation of a safe full of 
money from each cruise ship, which I believe may have been the 
rationale for the last November pirate attack off the coast of 
the Somalia. I appreciate the committee including these 
provisions and I hope they remain throughout the bill.
    Mr. Chairman, I yield back the balance of my time and I ask 
my full statement be entered into the record.
    Mr. LoBiondo. Without objection.
    We are now very pleased to welcome Rear Admiral William D. 
Baumgartner, Judge Advocate General for the United States Coast 
Guard. Admiral, please proceed.

    TESTIMONY OF REAR ADMIRAL WILLIAM D. BAUMGARTNER, JUDGE 
          ADVOCATE GENERAL, UNITED STATES COAST GUARD

    Admiral Baumgartner. Chairman LoBiondo, Representative 
Filner, and members of the subcommittee, good afternoon and 
thank you for the opportunity to testify on the administration 
proposal of the Coast Guard Maritime Transportation Act of 
2006. Mr. Chairman, for the purposes of this hearing I ask that 
my written statement be entered into the committee record and 
that I be allowed to summarize my remarks here.
    Mr. LoBiondo. Without objection.
    Admiral Baumgartner. Before turning to the proposal, I wish 
to express the Coast Guard's gratitude for the congressional 
response to our request for emergency powers in the wake of 
Hurricanes Katrina and Rita. We truly appreciate the speed with 
which Congress acted. As you know, H.R. 889 would make 
permanent some of those emergency powers, and grant or enhance 
other Coast Guard authorities. The Commandant appreciates the 
subcommittee's work on H.R. 889 and looks forward to 
implementing those provisions once they become law. We are also 
grateful for the kind comments that I received this afternoon 
from you.
    Now, with regards to the Coast Guard and Maritime 
Transportation Act of 2006, we would authorize the funds and 
end strengths requested in the President's fiscal year 2007 
budget and provide important new authorities as well as expand 
and clarify existing authorities.
    Four provisions warrant particular attention: section 205, 
merchant mariner credentials; section 202, technical amendments 
to tonnage measurement law; section 403, Maritime Alien 
Smuggling Law Enforcement Act, or MASLEA; and section 401, 
Maritime Drug Law Enforcement Act amendment on simple 
possession.
    The Coast Guard first proposed amendments to the merchant 
mariner credential statutes in 2005. In response to the 
subcommittee's direction, the Coast Guard has conducted an 
extensive public outreach effort, and section 205 is the 
culmination of that outreach. These amendments now include a 
safe harbor provision for innocent errors and protections from 
civil liability for persons helping others apply for a 
credential. They also provide a much clearer statutory language 
and take into account the findings or recommendations of the 9/
11 Commission.
    Finally, they allow for immediate temporary suspension of a 
merchant mariner credential when a mariner is involved in an 
accident involving death or serious injury and when there is 
probable cause to believe that that mariner was at fault.
    Next, I will turn to our proposed amendments for tonnage 
measurement. Existing tonnage law is difficult to apply to some 
categories of U.S. Flag vessels and can create loopholes for 
certain foreign flag vessels. Section 202, another provision 
developed in consultation with industry and labor, would remove 
conflicting language that suggests both a U.S. Flag vessel is 
ineligible for regulatory measurement and only existing vessels 
are eligible for tonnage grandfathering international 
agreements and laws of the United States.
    As well, section 202 would extend mandatory convention 
measurement to some undocumented vessels. It would also allow 
undocumented vessels to be assigned regulatory tonnage. Some of 
these amendments are found in section 309 of the committee's 
discussion draft.
    Now I would like to discuss section 403 the Maritime Alien 
Smuggling Law Enforcement Act, or MASLEA. During fiscal years 
2004 and 2005, the Coast Guard interdicted over 840 maritime 
smugglers facilitating or attempting to facilitate the illegal 
entry of aliens into the United States. Yet, less than 3 
percent of these smugglers were prosecuted. This low statistic 
is largely the result of current law, which was not designed 
for the unique aspects of extraterritorial maritime law 
enforcement that makes meaningful prosecutions difficult. With 
little deterrent effect, maritime smugglers consider such 
occasional prosecution as merely the cost of doing business. 
Section 403 which is modeled after the highly successful 
Maritime Drug Law Enforcement act, would address these 
shortcomings and enable us to improve security of our maritime 
borders through the effective prosecution of maritime migrant 
smugglers.
    Section 401 would establish a civil penalty of an offense 
for simple possession of narcotics aboard vessels subject to 
the jurisdiction of the United States. This provision will 
deliver meaningful yet measured consequences for illegal and 
unsafe conduct. In no way is this measure intended to condone 
possession or use of narcotics. Rather, it will complement 
existing law and effectuate congressional intent with regard to 
the possession of controlled substances. We were pleased that 
this proposal was included as section 306 of the committee's 
discussion draft.
    Finally, the administration proposal includes provisions 
that would improve the lives of Coast Guard members by 
protecting leave that would otherwise be forfeited due to the 
operational demands of natural disasters, by making permanent 
Coast Guard housing authorities, and by allowing for 
reimbursement of certain medical-related expenses. Such 
provisions are extremely important because they allow members 
to focus on mission execution, rather than on quality-of-life 
distractions.
    Mr. Chairman, Representative Filner, members of the 
subcommittee, thank you again for the opportunity to appear 
before you today, and I will happy to answer any questions.
    Mr. LoBiondo. Thank you, Admiral.
    Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman. Thank you, Admiral. I 
just want to ask a few questions that were not covered in your 
oral testimony. As I understand the maritime identification 
credentials program that was in the Federal Register earlier 
this year, port workers and sailors needing unescorted access 
to secure port areas are required to undergo name-based 
background checks against a terrorist watch list and an 
immigration status check to receive a credential until this 
TWIC program will finally be implemented.
    Now, where I live in San Diego, and other places, we are 
told that truck drivers, who make up one of the largest segment 
of port workers, are not being covered practically by this 
requirement. Is that true, and what is the rationale for that? 
There was an ABC news report recently that showed people in New 
York-New Jersey Port had fraudulent licenses, many of them 
undocumented drivers. So what are the facts of the matter from 
your perspective with this situation?
    Admiral Baumgartner. Thank you for that question. I 
appreciate the opportunity to address that. The long-range 
solution is the TWIC, the Transportation Workers Identification 
Card, and that will apply broadly and that will be the standard 
for access. The notice that we have put in the Federal Register 
about acceptable credentials for port access is an interim 
step, and, as such, it is targeted at what we can do 
efficiently and effectively until TWIC comes on line.
    So we have examined first those that have the most contact 
with port facilities, that have the most information, the most 
inside knowledge of the comings and goings of those important 
port facilities. Those are the workers that are there most 
often and that have the knowledge and access of that particular 
facility. They are also, from a practical, pragmatic sense, 
those are the easiest workers to be able to screen and to 
regulate access through this interim process.
    So that is why we started with those particular workers. 
They have the most ability to affect the security--
    Mr. Filner. I take that as a yes to my question. We are not 
looking at the truck drivers, then, by and large. I mean, you 
had a real long answer there, but I think you said we are not 
looking at those guys right now.
    Admiral Baumgartner. Today the truck driver that comes on 
occasionally to a facility would not have the additional 
screening under the current situation.
    Mr. Filner. If you cannot do that, how are you going to do 
the fingerprint-based background checks when TWIC is 
implemented? That is, why is that going to be any easier than 
what you have now? And meanwhile our ports are pretty 
unsecured, it seems to me, if we are not checking these 
thousands and thousands of truck drivers.
    Admiral Baumgartner. Well, when TWIC is in place, it will 
be able to expand more easily in a measured way to additional 
categories of employees and people that need unescorted access 
to facilities.
    Mr. Filner. Well, whatever the interim period is--and we 
know, by the way, in all of these situations--again, I 
represent a border city so I know that all of the programs that 
were supposed to be implemented in 2002, 2003, 2004, 2005 have 
never been implemented. So this interim may be a very long 
time, for all we know, given the complexities of these security 
checks. So your answer does not leave me too confident about 
what is going on at our ports if people with phony driver's 
licenses or undocumented persons can get access to the ports. 
It really worries me.
    I think you better figure out a way--this interim period 
may be longer than you think, because the TWIC situation may be 
more complex, and we have had in every similar situation--these 
Department of Homeland Security's exit visas, their passports 
situation--everything has been delayed and delayed and delayed 
because of the difficulty of it being implemented. So I would 
look at that again if I were you.
    Just quickly, I understand that the administration has 
requested legal authority to use funds from the oil spill 
liability trust fund to pay for other things such as on-site 
scientific or technical support services. How is that going to 
help people who have been injured or suffered losses from an 
oil spill?
    Admiral Baumgartner. Yes, sir. Actually this will help 
people that have been affected, because one of the provisions 
that you did not mention there are on-site contracting 
services. So when you have a major oil spill where there are a 
lot of third parties interested who have been affected and 
impacted--one of our major problems right now is that when the 
responsible party can no longer--or refuses to take care of 
third-party claims, those innocent people that have been 
damaged, we could have a flood of claims and our permanent 
staffing is not able to keep up with the influx of claims and 
it creates delays.
    If we have this flexibility for those unusual and 
infrequent occasions when we have to set up such on-site claims 
adjudication facilities, we will be able to do that and we will 
be able to consider those claims and pay them much, much 
quicker than without this authority.
    Mr. Filner. Well, I hope that there is, as you say, because 
it seems strange to make an argument that you will help people 
more when you have decreased the funds available for them. And 
your argument is based on the fact that there are certain ones 
that require this expert adjudication. Is that summing up your 
argument?
    Admiral Baumgartner. Not exactly, sir. What it is, it is a 
matter of capacity. If we maintained a permanent capacity that 
could handle the third-party claims from a large spill where a 
responsible party was not going to adjudicate the claims 
themselves, that would be a tremendous resource drain that 
would not be available for many many things.
    What this provision does when we have those exceptional 
circumstances, we need immediate surge response to get these 
claims reviewed and paid. We are able to get that kind of 
assistance, contract assistance in place and on site where the 
people are, and we can do it quickly and we can do it promptly. 
It is much better for us to be able to give the settlements to 
those people when they need them rather than, because of 
bureaucratic delays and inadequate permanent staffing, to have 
to adjudicate them from afar and have the large delay.
    Mr. Filner. Well, I hope you are right. I hope you will 
give us a sense after a year just what the situation was there.
    Admiral Baumgartner. Yes, sir.
    Mr. Filner. Thank you.
    Mr. LoBiondo. Mr. Diaz-Balart, do you have any questions?
    Mr. Diaz-Balart. Thank you, Mr. Chairman. I would be remiss 
if I didn't bring up two issues. One is thanking the Coast 
Guard. I represent southern Florida and I think it is probably 
where you are busier, busiest in the country. And it is 
incredible to see what the Coast Guard after 9/11, particularly 
on these new responsibilities that you are doing, and yet you 
are still doing the traditional things you have always done. 
And Mr. Chairman, as you all know, they do it with incredible 
dignity, with incredible respect, and, frankly, just do a 
spectacular job. So I want to thank you for that.
    Mr. Chairman, I also want to kind of add to what my dear 
friend and colleague, Ms. Brown of Florida, said. I also want 
to thank you for that provision--that wage penalty provision in 
the bill. I think it is sensible. I think it brings about some 
common sense to an area that has not been looked at, frankly, 
for probably over 100 years. I want to thank Ms. Brown for 
bringing that issue up. It is common sense. It affects not only 
a huge industry in the State of Florida, but thousands and 
thousands of people who are employed by that. So I just want to 
thank you, Mr. Chairman for including that as well. Thank you.
    Mr. LoBiondo. Thank you. Mr. Oberstar.
    Mr. Oberstar. Admiral, thank you very much for your 
presentation. I join my colleagues in expressing, as I have 
done on so many occasions, my great admiration for our Coast 
Guard and the extraordinary service you render for our country.
    Admiral Baumgartner. Thank you.
    Mr. Oberstar. As a previous Commandant of the Coast Guard 
many years ago said, it takes a very special person to wear 
this color blue; and I agree.
    Admiral Baumgartner. Thank you, sir.
    Mr. Oberstar. And the Coast Guard, I don't know what the 
weather channel would do without the Coast Guard, or perhaps 
what the Coast Guard would do without the weather channel. You 
really are the darling of the network. And they bring into 
homes across America the extraordinary service of the Coast 
Guard under extreme circumstances and the heroics that are 
carried out that these videos literally make seem routine. And 
we know that they are not.
    In the immediate aftermath, 6 weeks or so after Hurricane 
Katrina, members of our committee traveled through the Gulf 
States and finished in Mobile with a look at the Coast Guard 
facilities and a chance to look at one of those helicopters up 
close that I have been voting on for years and years. I see the 
remarkable technology of how you winch these people up from the 
depths of the roiling seas. I have just great admiration for 
your accomplishments.
    The Active-Duty strength of the Coast Guard is listed at 
45,500. Is that being met?
    Admiral Baumgartner. No, sir. I believe we are underneath 
that. That is our authorized limit.
    Mr. Oberstar. How far underneath that?
    Admiral Baumgartner. Actually, sir, I don't have the number 
right in front of me, but we can get back to you with that.
    Mr. Oberstar. It is not thousands, is it?
    Admiral Baumgartner. I think it is probably a few thousand 
less than that.
    Mr. Oberstar. My first term in Congress, the authorized 
strength of the Coast Guard was 39,000. Since that time 
Congress has assigned to the Coast Guard 27 new duties and 
responsibilities that range from drug interdiction to illegal 
immigrant interdiction and others that we all know and need not 
go through. You carried out all these duties with this 
relatively modest increase in personnel. That is an exceptional 
productivity record. And we ought not to tolerate a situation 
in which the Coast Guard continues to have new responsibilities 
but does not have the personnel necessary to carry them out. 
And I am curious as to whether the deficiency in personnel is 
due to lack of appropriations or to other purposes.
    Admiral Baumgartner. Yes, sir, I appreciate the question. 
And certainly one of the reasons that we have been able to 
continue to be successful is our multimission character. So 
when you add those 27 new missions and you have got the capable 
platforms, trained people, the right culture, that is how we 
are able to do that.
    With regard to the exact delta between what we are 
authorized and what we currently have on the books, sir, I do 
not have that information and a good explanation, but I 
certainly would get back to you with that.
    Mr. Oberstar. When you do that, would you please also 
provide the ratio of the enlisted to the officer personnel in 
the Coast Guard?
    Admiral Baumgartner. Yes, sir. We can certainly do that.
    Mr. Oberstar. I have a feeling that it was a smaller number 
of officers and a higher number of enlisted personnel. I have 
to go back to my files to check that back in 1975, 1976. But I 
suspect there have been a number of structural changes over 
time that just crept in.
    [The information follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Oberstar. There is other curious reference in the 
pending bill, section 408, data: In each of fiscal years 2007, 
2008, there is authorized to be appropriated to the 
Administrator of the Economic Development Administration $7 
million to acquire through the use of unmanned aerial vehicles, 
data to improve the management of natural disasters and the 
safety of marina aviation, transportation. Could you enlighten 
us to what that is about? I am curious about this increase in 
authorization to EDA of $7 million. It does not come out of the 
Coast Guard budget as I read it.
    Admiral Baumgartner. Well, sir, that is a provision that 
has been added in the subcommittee's discussion draft and it is 
one that we in the administration are looking at right now. And 
we really have not developed a position and I cannot really 
give you a whole lot of information on that particular 
provision.
    Mr. Oberstar. What kind of data would be gathered to 
improve management of natural disasters through unmanned aerial 
vehicles? Would these be similar to the weather aircraft that 
now fly into the eye of the storm, those that go above--as high 
as 70,000 feet?
    Admiral Baumgartner. Sir, I do not think that is what they 
are talking about. We have some other programs that are looking 
at the use of unmanned aerial vehicles in different scenarios 
and so forth, and frankly I do not really know how this 
particular provision ties into those other existing programs.
    Mr. Oberstar. I would appreciate any information you can 
provide us between now and markup on this rather curious 
provision.
    Admiral Baumgartner. Yes, sir. We will do that and we will 
get back to you on that.
    Mr. Oberstar. Thank you very much.
    [The information follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LoBiondo. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I apologize for my 
belated arrival. I had an earlier meeting and I have a 
subsequent meeting soon, so I will not be able to stay long.
    Admiral, good to have you with us. I want to reiterate what 
my friend from Minnesota said when he extended his generous 
comments to the U.S. Coast Guard. It does indeed take, Mr. 
Oberstar, a special breed of cat to wear that Coast Guard blue.
    Admiral, the draft bill retains the same level of Active-
Duty personnel as was authorized in the fiscal year 2006 bill. 
How does the Coast Guard plan to be able to meet its increasing 
mission goals--and, by the way, these increased mission goals 
imposed upon the Coast Guard appear to be endless, but you all 
somehow manage to keep responding without increasing your 
number of personnel. Do you have a magic wand with which you 
operate there? I know Admiral Allen handles the apparatus, but 
I would be curious to know about this.
    Admiral Baumgartner. Yes, sir; if he has a magic wand, I 
haven't seen it yet.
    Mr. Coble. I think someone has a magic wand down there.
    Admiral Baumgartner. I think if there is a metaphorical 
magic wand, as I said, I think that the key is our multimission 
character. When you have personnel with the authorities that 
have the training and the right culture, that goes a long way 
towards it.
    In terms of how we are looking to fulfill our commitments 
in the future, I think that certainly Admiral Allen has put it 
well when he testified here last week and in his change of 
command statement: We are looking at getting the right people, 
the right platforms. Deepwater is a large portion of that. 
Getting the right platforms in place with the right technology, 
the right sensors, the right systems integration so that we can 
work more effectively as a total system; then we do not need as 
many people and we can leverage technology there.
    That is certainly one of the reasons we can take on a lot 
more than we did when Mr. Oberstar first started his committee 
with not that many more people, is that the platforms that we 
have are much more efficient in terms of manpower than they 
ever were. You simply look at our new cutters, new ice breakers 
that are serving with less than half of the crew and much more 
capable vessels.
    Certainly in other areas, maritime domain awareness, where 
we are trying to leverage technology and intelligence to 
provide a common operating picture that gets us more knowledge 
about the environment we are operating in, rather than more 
people and more brute strength. So in many ways, as as I said, 
we are trying to work smarter.
    We are also working much better with our interagency 
colleagues in terms of within DHS, with DOJ, with DOD and the 
rest of the Federal agencies. We can certainly leverage our 
people, our authorities, and our capabilities much better than 
we used to be able to do.
    Mr. Coble. I thank you, Admiral. What is the overall 
enlisted and officer strength now?
    Admiral Baumgartner. Unfortunately, sir, I do not have that 
exact number in front of me but we can provide it to you.
    Mr. Coble. Mr. Chairman, I would like to have that 
information imminently, if we could.
    Admiral Baumgartner. Yes, sir. It is around 40- to 41,000, 
I believe, but I do not have the exact number.
    Mr. Coble. Total.
    Admiral Baumgartner. I believe it is around there, but we 
will get that number to you.
    [The information follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Coble. Thank you, Admiral. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Admiral, from a quick look, this bill appears to have been 
written by a lobbyist here in D.C. Rather than the Coast Guard.
    Let's start with 307. I worked very hard to put that 
language in the bill that would trace back who actually owns 
the vessel, so that folks, like neighbors in particular, would 
not portend to be an American-owned vessel when they are 
actually owned by a French firm. That French firm actually 
brags about operations in the Gulf of Mexico in their business 
brochure, so there should not be any doubt that the French guys 
don't know that they own this company, and there should not be 
any doubt to you that they own this company, and that is in 
violation of the Jones Act. So I would very much object to that 
and I would be curious where that language came from.
    But let me just walk down. 309. Why would our Coast Guard 
want to accept the measurements of any other State? As we know, 
there are some countries around the world where you can get a 
master's license just by showing up and paying a fee. My hunch 
is you could probably get a tonnage the same way. So why would 
we sign off on those inaccuracies? I am curious to hear your 
explanation on 310. I am willing to hear you out on that one.
    On 403 for years, if I am not mistaken, there has been a 
car dealership out of the State of Florida that kind of wants 
the best of both worlds. If their vessel were to catch on fire 
or if it were to sink, they want the right to call the United 
States Coast Guard. And yet, after being told on this issue for 
something in the neighborhood of 15 years that the Jones Act is 
reserved for American-built vessels, if I am not mistaken, the 
same folks keep insisting on buying a number now of foreign 
yachts, which is contrary to the Jones Act. It is not like 
these guys do not know the rules. This has been an issue since 
the Democrats controlled the House, and that was a very long 
time ago. So I would like you to explain that one.
    Tell me about 404. Jones Act waivers are not an end-all. It 
is sort of like those of us who used to be a city councilman. 
It is sort of like granting a variance. Every time you give one 
waiver, there are ten more guys who want a waiver. So once you 
do that, why have a Jones Act at all? I think the Jones Act 
exists for a very good purpose. It is there to protect our 
citizens, and so I have a little trouble with 404 and 405 
granting those waivers.
    That ought to get you started. And while you are talking, I 
will be reading the rest of this. But this surely does not look 
like something that was put together for the benefit of the 
American citizen. On a very quick glance, it looks like 
something that made K Street a lot of money, and I will let you 
tell me that I am wrong.
    Admiral Baumgartner. Yes, sir. Actually, most of those 
provisions in the discussion draft is not a bill that is put 
forth by the administration. We did come forth with a proposal 
that many of the provisions are contained in the discussion 
draft. The particular provisions that, I think most of the ones 
that you mentioned there, were not ones in the administration 
proposal and the discussion draft from the committee the 
administration is looking at and developing positions on the 
different provisions; but I don't have positions to discuss the 
specifics of most of the things you asked. One thing I can 
discuss--
    Mr. Taylor. Excuse me, sir. Let's go back to 307. This 
committee made a mistake, and I cannot even remember how I 
voted, so I will presume I have voted for it. This committee 
made a mistake when we allowed foreign financing of American 
flag vessels. And the reason for that is for those of you who 
do not have a documented vessel, you look on the back of that 
documentation paper, and if you have a lien against that vessel 
it is written on the back. That is who really owns it. And so 
for the while that the Hancock Bank had my note, they were the 
real owners of the boat, not me. So thank goodness since then 
that note has been paid off, so it is really my vessel. But in 
the foreign financing, we actually had an offshore supply boat 
company that built some boats here, and that is great. But on 
the back of that paper, on the documentation they listed a 
French firm as that owning the boats. So here they were, 
getting the best of the both worlds. They were operating in the 
Gulf of Mexico. If they caught on fire or started to sink, they 
call on the Coast Guard 24 hours a day, 7 days a week, 365 days 
a year. But by a very clever financing scheme, the American 
firm would see to it that they never made any money; that all 
the profits were passed on to the folks who held the paper over 
in France. So they did not pay American taxes because they did 
not make money. They paid the company over in France a pretty 
good chunk of money. They made money, but because the French 
company was making money in the Gulf of Mexico and since most 
countries do not tax overseas income, no one paid taxes. So the 
benefit of the United States Coast Guard was made available to 
this firm for free.
    That is wrong. It is in complete contradiction to the Jones 
Act. We want to know the folks that operate in our waters are 
American owned, American built, American crew. So we are 
closing that door.
    And again, my question to you is, you felt like--and when I 
say "you," I mean the Coast Guard--that you were under 
resourced to enforce that in the past; that you did not have 
clear and compelling language to enforce that. Is that still 
the case? Do you feel like you are under resourced to enforce 
that so that we know that these vessels are American owned, and 
do you have the resources both legally and financially to make 
that happen?
    Admiral Baumgartner. Congressman, I think the most 
important thing along those lines was the change in the 
substantive lease financing law. And if we had, in terms of the 
leased financing vessels, we have mortgage financing and leased 
financing, the changes that were made there that clarified what 
the rules were so that we could easily and fairly enforce them. 
That was, as you know, that was the important item there. With 
the mortgage-financed vessels, substantive rules are sometimes 
the most important ones because there are ways for clever 
people to get around them. Reporting requirements and giving us 
a better ability to inquire and ask reports of vessel owners is 
helpful--I am sorry, of mortgage companies--and so forth to 
find out what is really going on and what the business 
relationships are.
    But it has been a difficult thing for us to try to 
investigate a large number of transactions, and many times what 
our process is, is we look at the documents and if we do not 
see problems with them, then that is the best way. The document 
process proceeds from there.
    There are exceptions, and certainly there are the ones that 
you mentioned there with those particular vessels. So the 
ability to ask for more information and get more information 
and find out what the details are is certainly helpful. There 
is also the problem of when they come forward and they have 
information or provide information that appears to meet the 
requirement of the regs and the statutes. We may end up in a 
situation where people think they know what is going on behind 
the scenes, but there isn't any real way to prove that.
    In terms of one of the other things you mentioned, tonnage 
is one of the provisions that I can speak to because that is 
part of our proposal here. And we had significant tonnage 
amendments that we would like to go through. And you mentioned 
our acceptance of foreign tonnage measurements and so forth. 
That is part of the backbone of current commerce right now, 
maritime commerce, is the regime of international conventions 
and standards, and the classification societies that act as 
independent inspectors and guarantors of those different 
things.
    So if a vessel has been measured under the rules of a 
foreign country, they will also have been inspected by 
classification societies. And so, therefore, the results of 
those measurements, we will recognize those. I do not see any 
significant problems there. And those are part of our 
reciprocal obligations under the international conventions.
    Mr. Taylor. For clarification, your language requires that 
it be backed up by one of the measuring society's--let me give 
you a for instance that jumps out at me. You take a less-than-
well-organized Third-World country. You take a very large 
vessel. You pay off the right guy. It is now a 50-ton vessel. 
Anybody with a couple weekends on a boat who goes and attends 
their course can get a 50-ton vessel. It doesn't take a whole 
lot. So you could have a 400- or 500-foot ship that some nation 
says is a 50-ton vessel, you hire some guy who doesn't have the 
experience to be operating a 400-foot ship but, under these 
changes, when I first look at them, you actually created a 
safety problem.
    Now, again, tell me that that won't happen.
    Admiral Baumgartner. Well, Congressman, I can't guarantee 
that that won't happen, but I think that the likelihood that 
something of that egregious happening is not significant and 
that the registries that issue the certificates and so forth 
have a lot at stake in maintaining their credibility.
    We do have a port--
    Mr. Taylor. Going back to my question, are you tying it to 
those registries? A brief summary doesn't say that.
    Admiral Baumgartner. The law doesn't tie--the statute 
wouldn't specifically require a classification society to have 
been involved, but that is the normal process. What we do do 
is, in our port state control boardings, is we track the 
compliance of vessels by nationality, by registry. So if a 
particular nation has substandard vessels and does not have 
good inspection processes, they do have things like, as you 
were suggesting here, that appear to be blatantly inaccurate 
items, we would challenge those. It would then be noted in the 
port state control process, and the vessels of that nation 
would be targeted for increased numbers of boardings.
    Now the businesses that register their vessels under that 
particular nation's registry don't like that, and they put 
pressure on that nation or that country to increase the overall 
quality of their vessels so they aren't targeted, and that 
actually works pretty well. We just received word from a major 
flag state in the last week that they decertified some of their 
vessels because they weren't up to snuff, and they did not want 
to see their scores in our Port Security Control boarding 
regime, our matrix, to lift them up into another category that 
would subject other vessels of their nationality to a higher 
frequency of inspections and a higher intrusiveness of 
inspections when they called on U.S. Ports.
    I am confident that that won't be a problem on a systematic 
basis and that we have enough disincentives built into the 
system to keep everyone honest.
    Mr. Taylor. For the record, I would like someone from your 
office to come tell me about Section 405.
    Admiral Baumgartner. Yes, sir.
    Mr. Taylor. Mr. Chairman, you have been very generous.
    Mr. LoBiondo. Admiral, Section 206 would establish a civil 
penalty offense for simple possession of narcotics on a vessel 
or in a facility. What facilities would be included in this 
definition?
    Admiral Baumgartner. Thank you, Mr. Chairman.
    Facilities there would be broader than simply facilities 
that are specifically regulated under the Maritime 
Transportation Security Act regulations. So we would mean here 
the facility could include a marina. So that if we were 
followed or we were boarding vessels in a marina and had some 
particular purpose to be at that marina and there happened to 
be a personal use situation at the marina, we would be able to 
take action.
    If it was a more limited definition of facility and only 
applied to facilities that were regulated under Section 105, 
that type of marina wouldn't be covered. The only kind of 
facilities we would be looking at then would be ones that had 
four and five vessels or large passenger vessels.
    So this is a much broader meaning. So it would encompass 
the smaller facilities like marinas and so forth where we may 
still encounter personal use issues and scenarios.
    Mr. LoBiondo. Since there is already a criminal statute in 
the law, what is the need for this proposal?
    Admiral Baumgartner. Well, this proposal gives us a very 
good tool to cover a gap in the current practical enforcement 
scheme; and there are a couple of different places where that 
comes in to play.
    One is there are certain areas where State law and local 
laws don't apply. That might be from 3 to 12 miles in our 
territorial seas and on a high-seas vessel subject to U.S. 
Jurisdiction. In those cases, if we were going to take criminal 
enforcement action for personal use quantities, we would have 
to prosecute them in U.S. Federal court.
    Resource and other efficiency constraints there have caused 
the Department of Justice as well as State and local law 
enforcement and prosecutors to develop different thresholds 
over what type of a case merits the commitment of resources for 
a criminal prosecution. So sometimes we find ourselves in a 
situation where it isn't best or efficient for the prosecutor 
in that area to go forth with a criminal prosecution for a 
simple possession case, and what that does is that leaves our 
young Coast Guardsmen and women in a situation where they find 
people in possession of unlawful drugs on a vessel. They will 
confiscate the drugs, of course, but then, without the civil 
penalty provision, there may be no consequence.
    So the people that they have found in possession or perhaps 
even using the substances, there isn't a practical consequence. 
It technically is a violation of the criminal law, but it is 
not a practical item that--it may not be a practical case for a 
prosecutor to take.
    This civil penalty provision is a streamlined, efficient 
way of attaching consequences to possession in those particular 
circumstances.
    Mr. LoBiondo. Switching to deepwater, what annual level of 
funding would be required to complete deepwater within 15 
years?
    Admiral Baumgartner. Well, sir, it would certainly take 
more than what we have right now in the current budgets. That 
is a question that is under study, and I think you know H.R. 
889 would require a report on that. I think that, in 
anticipation of that, we do have people who are looking and 
providing those numbers, but I don't have numbers that I can 
provide for you here today for you, sir.
    Mr. LoBiondo. Thank you, Admiral.
    We will now move to the second panel. Oh--Ms. Brown.
    Ms. Brown. I guess my first one, when you get the 
information ready for Mr. Oberstar on the composition and the 
numbers, would you also give that to me? And I am interested in 
minorities and women and females.
    My other question, as you develop credentialing programs 
for, I guess, the longshoremen and for the truckers, I am very 
interested in--you know, Florida has some program that they 
don't have to go to each port to get a different credential and 
pay a different fee, some kind of uniform program. But I am 
also interested in, as you come up with some of the--I want to 
say very sensitive, some have checkered pasts, but they served 
their time. They paid their dues. I don't want to see people 
squeezed out of jobs because of some program that we come up 
with that is not related to September the 11th.
    So can you tell me a little about how you plan on 
formulating the program? I understand you have something in the 
Federal Register.
    Admiral Baumgartner. Yes, ma'am. There are a couple of 
things there.
    First, what I would do is turn to the transportation worker 
identification card, the long-term vehicle for that; and we are 
working with the Transportation Security Administration on the 
particulars of that particular program. There is a notice of 
proposed rulemaking that was issued last month, and we have had 
four hearings held so far with over a thousand attendees. So 
there has been a significant amount of public interest and 
comment. That particular card would be a national card so that 
it wouldn't require--it wouldn't be port specific, and it would 
allow you to go where you need to go.
    It also--in the notice of proposed rulemaking, it does set 
forth what the different criteria are for, I guess, security 
issues or where you might be denied a card. And it is focused 
on security issues. It is not focused on merely the fact that 
someone got in trouble and had a criminal record. So it is very 
clear in there that it is looking at things that would cause a 
security concern.
    And that sort of leads me to an important aspect of this 
whole program, is that the trick and the interim procedure that 
we did put forth in the Federal Register last month, those are 
both compliments to the facility's security plans which are in 
place right now under the Maritime Transportation Security Act 
regulations. Those particular plans require the facility 
operators to outline how they are going to control access to 
their facilities.
    And I may have given a misleading impression that right now 
that a trucker could go on any of those facilities because they 
aren't covered by a process. That is not accurate. What our 
interim process does, it says, in addition to what the facility 
does to screen escorts--or they may have surveillance or other 
ways they keep track of truckers or other employees on that 
facility. In addition to that, we are saying that they must, at 
a minimum, fulfill this other interim credential core 
requirement; and that requires us to screen those permanent 
workers and people who have frequent access to that facility. 
That is above and beyond the requirements that are laid on that 
facility and that are reflected in that security plan, and 
those are plans that are all reviewed and approved by the Coast 
Guard. So there are significant access controls.
    Ms. Brown. Couple of other questions.
    Coming from Florida--and, of course, various places around 
the country have these gambling ships that--that they are not--
they don't actually move into the waters. They are just 
stationary. And a lot of the States want you all to inspect 
these ships or facilities. What is the Coast Guard's position 
regarding inspecting vessels that are permanently attached to 
the shores and would the Coast Guard continue to inspect 
vessels that are not permanently attached to the shores?
    Admiral Baumgartner. Well, that is a good question; and 
there are many parts of that. We did put out a proposed policy 
to address different vessels. At that point in time, we called 
them permanently moored vessels. That is not a technically 
legal correct term anymore. That policy received a lot of 
comment and, right now, it is being reviewed as to what exactly 
we are going to do with those particular vessels.
    Another thing we are reviewing right now is the impact of 
some court decisions that define what the term "vessel" means, 
particularly for vessels that are permanently attached to the 
shoreline or to the seabed; and we are looking at all of those 
things right now to see what the best course is for the future.
    Some of that is not necessarily all in our hands because of 
the interpretations the Supreme Court has made, and there are 
other courts that are looking at this as well. So we are 
reviewing all of these particular items to figure out what is 
the best policy as we go forward. But we do realize if we don't 
inspect vessels as--inspect these structures or crafts as 
vessels, then the State or local jurisdictions will then look 
to inspect them under their particular laws and codes.
    Ms. Brown. Thank you, Mr. Chairman. I yield back my time.
    Mr. LoBiondo. Thank you, Admiral.
    Mr. LoBiondo. We will move now to the second panel.
    All right. Thank you, gentlemen.
    We have Professor Myron H. Nordquist with the Center for 
Oceans Law and Policy of the University of Virginia School of 
Law; and Mr. Douglas B. Stevenson, Director for the Center of 
Seafarers Rights of the Seamen's Church Institute of New York 
City and New Jersey.

 TESTIMONY OF PROFESSOR MYRON H. NORDQUIST, CENTER FOR OCEANS 
   LAW AND POLICY, UNIVERSITY OF VIRGINIA SCHOOL OF LAW; AND 
DOUGLAS B. STEVENSON, DIRECTOR, CENTER FOR SEAFARERS' RIGHTS OF 
      SEAMEN'S CHURCH INSTITUTE OF NEW YORK AND NEW JERSEY

    Mr. LoBiondo. Professor Nordquist, would you please 
proceed?
    Mr. Nordquist. Thank you, Mr. Chairman--
    Mr. LoBiondo. Could you please turn on your mike?
    Mr. Nordquist. Thank you, Mr. Chairman and other members.
    My name is Myron Nordquist, and I am the Associate Director 
at the Center for Oceans Law and Policy at the University of 
Virginia School of Law.
    Two weeks ago, I was called by the International Counsel of 
Cruise Lines and asked for independent views on proposed 
amendments to the wage penalty provisions in existing law. I 
make no pretense at being an expert on labor law. Rather, my 
experience is in broader international maritime law and in 
analyzing legal provisions. In any event, I was subsequently 
invited by this Subcommittee to testify today.
    My overall reaction then and now is that the existing law 
pertaining to penalty wage provisions, while historically 
understandable, is out of date. I respectfully submit that the 
proposed amendments provided by the subcommittee genuinely 
promote a better and more equitable maritime policy for 
passenger vessel seamen, many of whom on cruise ships today are 
more akin to hotel or restaurant employees. I also believe that 
it is more equitable for masters, owners, operators, and 
employers.
    Moreover, as elaborated in my written testimony, my view is 
that the proposed amendments reflect sound public policy that 
ought to be incorporated into updated chapters of Title 46 of 
the U.S. Code. The penalty wage provision in the proposed 
amendments, in my view, incorporate evenhanded due process 
procedures for all concerned. If these due process procedures 
are added, Congress will advance a major step in the direction 
of circumscribing and promoting a fair, early settlement of 
seamen wage disputes. Due process to me means fundamental 
fairness in how the law is applied to everyone.
    In response to several of the members' inquiries, I would 
like to stress that the proposals do not change the wage 
penalty law itself. They only relate to the timing before it 
kicks in.
    The proposed amendments contain a more rational procedure 
whereby a seaman is to provide written notice of his wage 
claim, and the master, owner, operator or employer then has an 
opportunity to remedy the dispute. The amount in question must 
be paid either immediately then to the seaman or deposited in a 
fiduciary account while the dispute is resolved. The penalty is 
assessed if the payer does not follow the clearly outlined 
procedures.
    It is not accurate to argue that the existing wage penalty 
is only imposed for willful misconduct, as no finding was made, 
for example, in the leading Supreme Court case of Griffin vs. 
Oceanic Contractors, Inc. There, the U.S. Supreme court 
affirmed a judgment of over $300,000 for a $400 wage dispute. 
The decision held that the district courts lacked discretion to 
vary the period of the penalty, and Congress was challenged to 
rectify the obvious deficiency in the judgment.
    Further, the allegation that the owners are attempting to 
avoid customary maintenance and cure obligations via the 
proposed amendment is just plain wrong.
    I urge the subcommittee to lay this "red herring" to rest 
by inserting appropriate language wherever it is needed to 
provide the clarification.
    What puzzles me is why there is such passionate resistance 
to due process procedures that are commonplace throughout all 
of American law. The proposed amendments will facilitate the 
prompt payment of seamen wages. The proposed amendments do at 
long last treat seamen as responsible adults.
    The repeated use of the adjective "unscrupulous" for 
passenger vessel operators, which is contained six times in six 
paragraphs on page 5 of Mr. Stevenson's written testimony, is 
really unconstructive for a resolution.
    Seamen also have their share of moral shortcomings. 
Emotional calls for collective punishment for all shipowners to 
reach a few bad actors is plainly unfair and, in my view, a 
violation of due process of law.
    My last point is that a statute of limitations ought to be 
measured from an objective date, such as when the alleged 
dispute arises, not from some subjective time based on a seaman 
or anybody else's knowledge.
    The purpose of the statute of limitations in all cases is 
to bring an end to stale claims and promote timely 
administration of justice. The current wage penalty provisions 
stand legal rationale on its head by actually providing 
incentives to delay the settling of seamen disputes.
    In conclusion, my view is that the proposed amendments are 
long overdue and, in modern society, not all seamen are hapless 
fools and not all passenger vessel owners are unscrupulous. The 
due process requirements of notice and opportunity to remedy 
disputes and the proposed amendments strike me as being fair 
and evenhanded to all concerned. I believe they are good public 
policy and ought to be enacted.
    Mr. LoBiondo. Thank you, Professor.
    Mr. Stevenson.
    Mr. Stevenson. Thank you, Mr. Chairman and subcommittee 
members.
    I am very pleased to be here today at the subcommittee's 
invitation to testify on the United States Penalty Wage Act.
    Just to begin with, I might want to respond to one of the 
questions about my use of "unscrupulous" passenger vessel 
operator. I use that because the Act could allow unscrupulous 
ship operators to do certain things and would allow the 
responsible scrupulous passenger vessel operators to 
differentiate themselves from the unscrupulous ones.
    But, Mr. Chairman, there is no law that better expresses 
what America stands for and that confirms American values than 
the United States Penalty Wage Act. This law was enacted by the 
first Congress of the United States, the same Congress that 
started the U.S. Coast Guard, the predecessor agency U.S. Coast 
Guard; and, like the Coast Guard, this law has served the 
United States well. It has served seafarers well; and the 
statute simply requires, very simply, that shipowners should 
pay seafarers on time and accurately.
    The Act is purposely simple: to encourage quick payment of 
wages without the need for lengthy procedures or judicial 
interpretation. The Act attempts to deter unscrupulous 
shipowners from arbitrarily and unscrupulously withholding 
seafarers' wages by imposing a 2-day penalty for each day that 
wage payments are delayed.
    It is clear from court decisions that responsible 
shipowners have nothing to fear from the Penalty Wage Act 
because the Act makes clear and the court decisions make clear 
that penalty wages do not apply every time a seafarer's wages 
are not paid on time. Only when the failure is without 
sufficient cause is a seafarer entitled to penalty wages.
    Without sufficient cause means that conduct which is in 
some sense arbitrary and willful. As one court has said, 
penalty wages are appropriate only when the employer has acted 
in a dishonest or very highhanded way.
    Mr. Chairman, the special projections accorded to merchant 
mariners by the Penalty Wage Act are as relevant and necessary 
today as they were in 1790, 1872 and 1898 and 1915. I know from 
my own institution, which was heavily involved in the 
amendments in 1915, that these protections are as necessary 
today as they were then.
    The issue is not technology of the vessels. The issue is 
rather the disproportional bargaining position, disproportional 
bargaining power of a shipowner compared with a seafarer and 
the intimidation that seafarers have suffered, and that has not 
changed since 1915 or 1790.
    This situation was brought upon by some cruise vessels who 
were sued in court on the Penalty Wage Act claims for Royal 
Caribbean, Norweigian Cruise Lines and Carnival Cruise Lines. 
In each of the cases you should understand seafarers are 
foreign seafarers working on foreign flag vessels working 70 
over to a hundred hours a week, and many times it was alleged 
that they were not paid their overtime salaries. We should 
understand that, what salaries that they were paid, the tip 
employees were paid approximately $50 a month; and they are 
relying on tips between $1,000 and $3,000 a month for the 
remuneration.
    But rather than instituting an industry-wide standard to 
ensure that seafarers are properly paid, the cruise industry 
has responded by asking Congress essentially to amend the 
Penalty Wage Act that would essentially repeal the effect of 
the Penalty Wage Act on seafarers on cruise vessels.
    My comments on the particular provisions are contained in 
my paper, but I would suggest that we could look at this 
request from this perspective: This cruise industry which 
chooses to avoid obligations under U.S. Law by operating their 
vessels under foreign flags and employing foreign workers under 
Third-World wages is asking Congress to protect them from an 
arbitrary and unscrupulous failure to pay their foreign 
seafarers on foreign flag vessels the Third-World wages they 
work so hard to earn.
    I would suggest--if I could have 30 more seconds, Mr. 
Chairman. I would suggest that, rather than throwing out over 
200 years of vitally important legislation and jurisprudence 
protecting all seafarers in the United States ports, I would 
respectfully ask that Congress reject the industry proposal; 
and the industry should be asked to initiate a proactive 
program, as they have done so well in the environmental field, 
to change the culture of the cruise industry by putting into 
place appropriate record keeping procedures that will 
accurately record the hours of work of their crew members and 
by establishing a zero tolerance policy against intimidating 
crew members who seek only to enjoy their legal entitlements.
    The cruise industry did a very good job when they were hit 
with a lot of pollution cases in the late 1990s. But instead of 
going to Congress and asking Congress to repeal the 
environmental laws, they instituted changes within the industry 
that are designed to prevent point source pollution from cruise 
vessels. The same sort of procedure, the same sort of 
initiative could be started by the industry with regard to 
seafarers' rights that could be a model for the industry.
    I thank you, Mr. Chairman, for the extra minutes.
    Mr. LoBiondo. Thank you.
     Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman.
    Mr. Nordquist, you started off by saying you weren't an 
expert in this law. Your testimony certainly confirms that. Do 
you know why the people who know this better, like the cruise 
line operators and their lobbyists and their attorneys, are not 
here instead of you?
    Mr. Nordquist. Actually, they are here. If you have 
questions, I am certain you are the master of your own forum; 
and they could answer them.
    Mr. Filner. Could we invite those half-dozen to join us? I 
mean, you are getting notes from the guy behind you, who I 
think is with the International Council of Cruise Lines, so why 
doesn't he come up?
    Mr. Nordquist. Mr. Chairman, I am not in charge of 
anything.
    Mr. Filner. You are just here because somebody told you to 
be here, huh?
    Mr. Nordquist. No, I am here because I read the proposed 
amendments and was invited to testify.
    Mr. Filner. Are you getting paid for being here?
    Mr. Nordquist. I am certainly getting paid.
    Mr. Filner. By who?
    Mr. Nordquist. By the cruise industry.
    Mr. Filner. Interesting. Thank you.
    Mr. Nordquist. I think everybody who appears here is paid 
by someone. I got into this because I was asked to provide 
independent views. I guess they thought what I said made sense.
    Mr. Filner. Well, it didn't make any sense to me. You said 
everything all out of date.
    Mr. Nordquist. I didn't say that. Those are not my words. 
The law--
    Mr. Filner. You said the law is out of date.
    Mr. Nordquist. Of course--
    Mr. Filner. So is protection for overtime out of date? 
Protection for when a person gets paid out of date? Are those 
things out of date, in your view?
    Mr. Nordquist. The proposed amendments are intended 
actually to update all those kinds of records.
    Mr. Filner. Have you met or interviewed any of the seamen 
who have brought the class action lawsuits against the 
Norweigian cruise lines so you knew what they were saying? Even 
though they worked over a hundred hours a week and weren't paid 
overtime, have you talked to any of those guys?
    Mr. Nordquist. I am familiar with the kind of allegations 
that go into litigation.
    Mr. Filner. Do you think that is fair?
    Mr. Nordquist. Excuse me?
    Mr. Filner. Do you think working over a hundred hours and 
not getting overtime is fair?
    Mr. Nordquist. The ones that I have talked to, frankly, are 
working mostly for tips; and when you tell them that they have 
to go back and stop working, it means access to a larger source 
of income is cut off from them. I think there is a distortion 
in the mind of people that don't understand that most of the 
money that many get comes from tips.
    Mr. Filner. So you don't agree with the settlement that the 
cruise lines had to pay?
    Mr. Nordquist. I don't know enough about the facts to give 
a judgment. That wasn't really what I was offering testimony 
on.
    I think we ought to give due process to everybody, and I 
think that the Constitution is more fundamental than some law 
passed with a few sentences in the First Congress. That is my 
position. I guess the cruise industry liked that.
    Mr. Filner. I guess.
    Thank you for your definition of compassionate 
conservatism.
    You said in your statement that the amendments don't change 
the law, they just refer to the timing of when things come in. 
Let me read you a couple of changes that occurred.
    Mr. Nordquist. I didn't say that.
    Mr. Filner. Yes, you did.
    Mr. Nordquist. I said it didn't change the penalties.
    Mr. Filner. Let me read to you a couple of things and ask 
if you want to stay with that.
    The proposed amendment changes the penalty computation from 
2-days' wages for each days payment delay to not more than 2 
days' wages. Isn't that a change in the penalty?
    Mr. Nordquist. And that is an error. It is an error in the 
document that I reviewed, and I had to give counsel an 
explanation prior to this hearing that that is an error.
    Mr. Filner. So what should it say?
    Mr. Nordquist. It should say the penalty is the same 
whether it is in Chapter 103 or chapter 105.
    Mr. Filner. So we have something that was written by the 
cruise ship industry in error.
    Mr. Nordquist. I am not really able to say where the error 
occurred, but certainly what I can say is that the penalty is 
intended to remain.
    Mr. Filner. That is not what the language says right now.
    It also changes, as I understand it, where the burden of 
proof is. For example, that the proposed amendment requires a 
seaman to prove that his employer did not have sufficient cause 
not to pay him. You are shifting the burden of proof there.
    Mr. Nordquist. I didn't say that. I don't know where this 
is coming from.
    Mr. Filner. That is what the amendment says.
    Mr. Nordquist. I certainly didn't read it that way.
    Mr. Filner. You wouldn't read it as shifting the burden of 
proof?
    Mr. Nordquist. That is correct. I would not.
    I would say that it imposes an obligation, as it exists 
almost everywhere else in the law of the land, that a seaman is 
to give notice that he wants to be paid what he thinks he is 
due. How can you pay a debt you don't know about? That is 
common sense.
    Mr. Filner. How does an individual person--who may have 
language problems, may have other issues, including 
intimidation and afraid of not being rehired, that he's 
supposed to know why or prove that--he has to prove that there 
was cause? Maybe there was a computer error. How does he know 
one way or the other? But he has to have cause to bring the 
complaint.
    Mr. Nordquist. You are mixing up, sir, cause and notice. 
Notice is when the man gets his pay stub. He looks at it and 
says, wait a minute; I am owed more money than this. Then he 
should have a duty to go to whoever it is that issues a 
paycheck and say, I am short. I don't think it is a very onus 
provision to give notice. Now that doesn't mean he has to prove 
it. It simply means he has to give notice.
    Mr. Filner. We will have to read that part of it a little 
more directly, because I think you are putting the burden of 
proof in this amendment back on the individual, as opposed to 
the people who ought to have the burden on them.
    I will have a second round, Mr. Chairman, if you don't 
mind.
    Mr. LoBiondo. Ms. Brown.
    Ms. Brown. Thank you. I have always supported workers' 
rights, and I am a strong supporter of workers' rights, but for 
2 years I have looked at some of these provisions, and I really 
think they need to be updated.
    Some of the things that greatly concern me is, for example, 
a worker has to go to Western Union--you know, that mentality--
that Western Union mentality. They have to spend a large 
portion of their money wiring the money back home because, in 
law, that you have to pay that person in cash, that is 
ludicrous.
    So that is one provision I know that needs to be updated, 
that the cruise ships have to have cash on hand and they have 
to pay them in cash. Now do you agree that that is one 
provision that needs to be corrected?
    Mr. Stevenson. Yes, ma'am. Thank you for that question, 
because--I mean, I have direct deposit for my salary.
    Ms. Brown. I have direct deposit, too; and when we came up 
for the provision for Social Security, it was a difficult task 
getting my seniors to understand that that is a good thing. Now 
it is, and I don't have to worry about people attacking them 
when they go to the bank to cash their checks.
    Mr. Stevenson. But, you know, I have been working defending 
seafarers for the Seaman's Church Institute for 16 years. We 
have a free legal aid program for seafarers worldwide. I have 
never in my experience had a seafarer come to me and say, I 
want direct deposit. I want allotments made back home. I want 
to be able to send home money through electronic means.
    A few years ago, the ITF tried to initiate a program where 
seafarers would--they have an agreement with all of the 
shipping companies to set up a worldwide direct deposit program 
with ATM cards and ATM machines at seafarers' centers all over 
the world. Seafarers would have nothing to do with it. They 
didn't want it at all. They want to be paid cash. They want to 
be paid cash.
    Because seafarers are coming from a lot of developing 
countries--the Philippines, in particular--are very, very 
accustomed to abuses in allotments, that things are taken out. 
That is why they prefer--and I agree with you. They don't like 
going to Western Union. That is why they come to the Seafarer 
Union in the New York area, and others who have passenger ship 
terminal industries provide a service of wiring money home at a 
cheap rate.
    Ms. Brown. Could you all take a check? Could you take a 
check?
    Mr. Stevenson. We would take a check, of course, but they 
don't want to be paid that. I can't--
    Ms. Brown. I think--
    Mr. Stevenson. The other problem with this, though, in the 
language of the proposed bill is that it would open the door 
for taking out payments for, say, personal medical insurance 
for seafarers. This is not a red herring that was suggested 
because we have had complaints particularly from what are 
called entertainers and hotel staff workers that the cruise 
industry is trying to exclude from the definition of seafarers, 
that they are as much a seafarer on a cruise vessel, on the 
mission of a cruise ship, as a tanker man is on a tanker.
    But we have had complaints that they have been required as 
a condition of employment through their recruiting agency to 
show that they have personal medical insurance. It is not 
against the law for someone to have their own medical 
insurance, but if you can set up a system where money is being 
taken out of your pay for medical insurance and you are told 
you must voluntarily agree to this as a condition of 
employment, then the shipowner has reduced expenses for medical 
care and it is something that we are very concerned about.
    Ms. Brown. The other provision that I want--I have brief 
time and we can discuss this as this moves forward, but I have 
a concern about--the only issue that I am concerned about is 
that I think that the workers should notify the employer if 
they have a problem. If I have a problem with my check, I am 
going to let you know the day that I have a problem, the moment 
that I have a problem. There will be no confusion if there--if 
my check isn't right, I am going to let you know.
    Mr. Stevenson. I think that is something that land-based 
workers have a very good understanding about. The difference, 
however, is when you are dealing with a disproportionate 
strength in bargaining power between a seafarer, let us say 
coming from the Philippines, working as--and most of them do, 
28 percent of the world seafarers are from the Philippines. 
They know for every job that is offered there is 200 people 
behind them. They know if they are labeled a troublemaker they 
lose their job and they are not rehired.
    Ms. Brown. I don't think it is being a troublemaker if it 
is a problem with your money.
    Mr. Stevenson. I don't either. But, unfortunately, what 
they experience is we have had many, many, many, many cases of 
seafarers who have been dismissed from their employment who 
have been retaliated against simply--and blacklisted from 
future employment by the system of recruiting agencies in the 
Philippines simply for requesting what they are legally 
entitled to have.
    Ms. Brown. And I think we should work with this, but I 
think there should be some way to modernize this, that it 
should be fair on each side.
    Mr. Stevenson. And I think so, too, Congresswoman.
    I think what I suggested is that the first step ought to be 
that the industry itself, which is in the best position to know 
whether or not a person is properly paid, should set up a 
system so they know exactly how much that seafarer is being 
paid. They keep track of the hours. They can keep track of 
every drink that a passenger drinks. They can keep track.
    Ms. Brown. You don't think they are doing that?
    Mr. Stevenson. No.
    Ms. Brown. Do you think they pay people--that they don't 
know how much they are paying them?
    Mr. Stevenson. If you look at the allegations in the class-
action suits, there are many allegations--and I think 
affidavits could be provided--where the shipping company could 
not verify the hours worked.
    Ms. Brown. I don't know how that could possibly happen, 
but, as we move forward, the industry, as it moves forward, 
maybe there are some recommendations that you could make that 
would be helpful to them. But I think you should look at some 
of their proposals; and I really have a concern about, you 
know, the Western Union provisions.
    Mr. Stevenson. I am very happy to work with you, with the 
industry, with anybody, if it is going to help seafarers.
    Ms. Brown. Thank you, Mr. Chairman; and thank you, Mr. 
Ranking Member.
    Mr. LoBiondo. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Chairman, more of an observation, I welcome the 
thoughts of both of these gentlemen. In the wake of Hurricane 
Katrina, our Nation at considerable taxpayer expense hired 
several cruise ships, one of which went to Pascagoula, 
Mississippi, went to Mobile, at least one went to New Orleans. 
And since all of us, hopefully, are here to look out for our 
constituents, one of the things I find troubling, I hope we can 
address in this, is, you know, a foreign ship is, in effect, an 
island. It is a little bit of sovereignty of whose flag it 
flies and lives under those rules.
    That may be fine for a ship that is transiting our waters 
or may be here for a day or 2, but when some of these ships sit 
at our docks for 4 or 5, 6, 7, 8 months and continue to pay 
people something less than the minimum wage, continue to be 
exempt from the workman's comp laws, and they are right across 
the street from hotels that have to live by all the rules or, 
in the case of New Orleans, they were immediately adjacent to 
an American flag vessel that was paying its folks American 
wages, living by the American rules, seafarers' rules, 
workman's comp, Mr. Chairman, it is not fair. And if we are 
going to address unfairness in this bill, it is something that 
we should look at and particularly since we were the charter.
    We hired those guys. We hired those guys in my home county. 
As recently as February, we had something like 18 percent 
employment. In an adjacent county, we had 16 percent 
employment. Many of those people had come from the casinos in 
Biloxi. They would have loved to have done something similar to 
that on a ship that we are chartering. Unfortunately, we have 
got that ship from a Third-World country who are living by the 
very rules that are unfair.
    Again, it is--I think if it is transiting our water, but 
when it is camped out in our water 4, 5, 6, 7 months at a time 
on the American taxpayers' time, that is not right. I would 
hope that this bill would be the vehicle to address that.
    I mean, we, as a Nation, have made several mistakes along 
the line. We had just finished two cruise ships that were under 
construction in Pascagoula early on in the Bush Administration. 
In the wake of 9/11, a guy named Zell chose not to finish it. 
So we sold them for about a penny on the dollar. They are being 
built in Germany, which is not a low-wage country. They are 
going to be completed. But if we would have completed them, 
they would have been in our inventory, and we would not have to 
have hired those foreign ships who were adding ships to our 
inventory.
    That was mistake number one. That is water under the 
bridge.
    Katrina wasn't the last disaster to hit America. There will 
be other disasters. Some of them will probably be manmade. One 
of the ways we are going to respond to that is with temporary 
housing being brought in; and since many of our major cities 
are on the water, it is a pretty good bet that the temporary 
housing will come in the way of ships.
    In fairness to the American mariner on that tugboat across 
the dock or that off-shore supply vessel across the dock or 
that crew boat across the dock, in fairness to those guys who 
are living by all the rules, some rules have to be established 
in this committee that, if we are going to hire somebody, they 
are going to have to live by the same rules. If they are going 
to be tied up to the American dock for 3, 6, 7, 8 months, they 
are going to have to live by our rules.
    Again, if this bill is in the process of being put 
together, I would ask for that consideration; and I would also 
welcome the comments of you two gentlemen as to that. Because I 
just don't see, if you people pride yourself on the law, how on 
earth can we have a set of laws for this ship but not that one 
and they are right across the dock from each other.
    Mr. Stevenson. Well, I can take you one step further. You 
can have on the same ship people from different nationalities 
working side by side and one nationality on a foreign flag 
vessel getting totally different conditions than another. So 
there are many disparities of the law; and that is why I think 
it is so very important that we think very, very carefully 
about throwing out the projections that we have without fully 
understanding the ramifications of them.
    I would really wish that we could have an industry-wide 
model program first before we step into those waters of 
changing hundreds if not thousands of years of maritime 
practice and law protecting seafarers.
    Mr. Nordquist. I wanted to say my colleague knows the 
Maritime Labor Convention much better than I do, having 
participated extensively in it; and all I want to comment on is 
that the proposed amendments, in my judgment, are comparable to 
what is state practice around the world. That isn't to say that 
it is fair. The living conditions and many other things are 
different in different countries, and we still have an awful 
lot of respect for the flag. It comes in handy when it is one 
of our warships that is under our flag. So that the flag system 
is very complex, and I have no comment I can actually offer on 
what you raised except, the way you expressed it, it certainly 
sounded to me like there was something that was wrong about it. 
But I can't say anything about the specifics because, sir, I 
don't know.
    Mr. Taylor. Mr. Chairman, if I may close, you know, there 
has been a heck of a lot of debate in this Congress, 
particularly this summer, about illegal immigrants taking the 
jobs of Americans. In this instance, these are jobs that the 
American taxpayers paid for. It is part of the Hurricane 
Katrina recovery. It will be a part of the next hurricane 
recovery. And, again, in fairness, I would ask that we have a 
full and open debate on that.
    If a ship is going to be tied up in our dock for months at 
a time at taxpayer expense, the very least we, as the stewards 
of those tax dollars, ought to demand is they live by our 
rules, every one of our rules, just like the American flag 
vessel across the dock from them.
    With that, thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Oberstar.
    Mr. Oberstar. I think the gentleman from Mississippi has 
raised some very cogent and pertinent questions and the 
gentlelady from Florida has done as well. I was listening with 
one ear as I was talking to the FAA about other matters in the 
company room. I didn't--
    Mr. Filner. I raised them, too.
    Mr. Oberstar. I didn't hear yours. There was a break in the 
conversation. I wasn't able to hear what you were saying, but I 
am sure they were very, very relevant. No question at all.
    Luis Bonanos is a 61-year old pastry chef from Colombia. He 
understands, writes a little bit of English, can read only a 
little bit of English. His shift was 1:00 a.m. to 10:00 a.m. 
And then 1:00 p.m. to 3:00 p.m. And then 4:30 p.m. to 8:00 p.m. 
On Sunday through Friday and so on, for a total of 14 and a 
half hours Sunday through Friday and then 15 hours on Saturday. 
That is 99 and a half hours a week. His requirement was to put 
in 70 hours a week. We have a deposition from him to this 
effect. But Norweigian Cruise Lines never paid him overtime, 
even though the Norweigian Seamen's Union contract provided 
that he would be paid overtime for over 70 hours.
    Now I have never worked on board a cruise line, but I have 
taken three cruises. Well, they really weren't cruises. As a 
student, I traveled from New York to New Java aboard the Queen 
Mary en route to a graduate program and came back aboard the SS 
United States; and when I left Haiti, I took Grace Lines from 
Haiti to--after working there 3 and a half years--to New York. 
So it wasn't really a cruise, but it was a port. One of these 
things we call cruise vessels today. There were a lot of people 
that were taking it for a cruise.
    I worked in the inermis. I worked in a concrete block 
factory. I earned my way through college. I ducked out a few 
times, but I never put in 70 hours in a week. The human body 
has limits. Our turnover of time hasn't changed in 50,000 
years. To ask a person to work 99 hours is bad enough--I mean, 
on top of not to pay.
    So when it came to make the deposition in U.S. District 
Court he said, quote, from the deposition, I did not complain 
about not being paid overtime because I could not afford to 
lose my job. I had a family to support, and they depended on 
the money I earned. Workers on the ship are very much afraid of 
losing their jobs. The union cannot prevent people from being 
fired for trivial things. There is no guarantee you will be 
rehired at the end of your contract.
    For these reasons, people on the ship do not complain about 
conditions or the lack of payment of overtime because they are 
afraid they will be called a troublemaker by the supervisors 
and soon be fired. They are not like airline mechanics, AFP 
mechanics certified by the FAA; and if the mechanic says I will 
not sign off this slip, that plane doesn't move.
    So what do you think about that? Is that, Professor 
Nordquist, what you said is an industry-wide practice?
    Mr. Nordquist. I did not say anything like that.
    Mr. Oberstar. You were referring to questions asked by the 
gentleman from Mississippi and saying, well, these are sort of 
industry nation, not worldwide practices.
    Mr. Nordquist. The Maritime Labor Convention does have a 
70-hour provision, but, frankly, I am sure that Mr. Stevenson 
has something to offer here. But, frankly, I think I can almost 
rest my case on what you have said about why I support putting 
due process into this 1790 law. It is in our 4th and 14th 
amendments to the Constitution.
    There ought to be due process for a fellow like that, but I 
don't think he is the only person that deserves due process. I 
think everybody deserves due process. And I am not sure that on 
a case like that that I would have any quarrel with the facts 
as you presented. It is just that I would like to see him--get 
paid what he is due right away, rather than waiting 10 years 
and going through some big class-action lawsuit clogging up the 
courts.
    Mr. Oberstar. Your testimony, which I read over last night, 
says much has changed in the last 90 years. Vessels and cruise 
are much larger. Treatment of seamen, many of whom are women, 
is more humane. I don't find 99 and a half hours to be more 
humane.
    Mr. Nordquist. In the case you gave, was it a woman?
    Mr. Oberstar. No.
    Mr. Nordquist. The Maritime Labor Code is attempting to 
improve on this situation. In any work setting, there are going 
to be problems like this person encountered; and I am not at 
all sympathetic to any employer that treats his people that 
way. Doug Stevenson has been a much more articulate advocate 
than I have been on that point. But my argument for you is that 
there should be a due process procedure so that they don't have 
to go into court, that if they have a complaint about their pay 
stub, they go in and have proper records. And if they are not 
getting their overtime and they are entitled to their overtime 
and they have really signed a contract, I am in favor of, 
obviously, of their getting paid promptly.
    Mr. Oberstar. And--I want to get Mr. Stevenson. And you 
would be right if everything were on the level. But if they 
are--the workers on board these ships are in the nature of 
indentured servants. They don't have much recourse. Then it is 
a different picture.
    Mr. Stevenson.
    Mr. Stevenson. Well, that is exactly why we are here, sir. 
These incredible hours of work that seafarers are induced to 
work for tips--and, actually, they would get no additional tips 
whether they worked 70 or 110 hours a week. They get the same 
tips, but it is a way to inhumanely work people beyond human 
limits.
    And I might add that probably the person you are talking 
about not only was working these kind of hours every week but 4 
weeks out of the month and for a contract from 6 to 10 months 
out of the year with no right to be rehired. Once these 
seafarers finish their contracts, they go to their recruiting 
agency, and they try to get another contract. Because they are 
hired through recruiting agencies, for the most part, in their 
home country; and they know from the ship and they know from 
the recruiting agency that if they try to enforce their rights 
they will be labeled a troublemaker and they will be sent home 
probably never to work again on another ship. And these are 
highly valued jobs.
    An ordinary seafarer, ordinary seaman coming from the 
Philippines working on a cruise vessel is making more than the 
doctor in his hometown, making more than his high school 
principal. So they are not going to jeopardize that. That is 
why they put up with these kinds of hours.
    And putting a notice requirement--let us say, for example, 
the 180-day notice requirement. Seafarer starts his 10-month 
contract. Notices his first paycheck is wrong. He complains. He 
is on the next plane home.
    And, by the way, the shipping company doesn't have to pay 
him for 4 days. By that time, our immigration laws, which say, 
well, he is out of a job. He is no longer a crew member. He is 
out of the country within 24 hours.
    Mr. Oberstar. So how do you get protection for this person? 
If that happened in an iron ore mining processing plant in my 
district, they would shut that plant down today. The union 
would shut it down, and no one would walk off the property, and 
they would fix the problem right then. What protection does 
this person have on a ship?
    Mr. Stevenson. Fortunately, this person still has a penalty 
wage statute that exists today. That person, if we change it in 
the notice requirements, it would encourage litigation. The 
provision that says that the penalty is up to 2 days wages 
would make--guarantee that the shipping company would never pay 
because it would want to litigate what is an appropriate 
penalty. And, furthermore, the process where the shipping 
company would have a certain period of time to correct their 
own--put the money into escrow, he has two choices when 
notified. He can either pay the seafarer or he can put the 
money into escrow and then go to court for determination.
    Well, what does that result in? If the shipowner puts the 
money in escrow, goes to court, the seafarer is home. He can't 
come back to litigate; and if he could come back, he couldn't 
afford the cost of defending the suit. So the shipping company 
would have a default judgment, be able to keep the penalty and 
the wages. It would not help the seafarer.
    What these notice requirements do is not provide due 
process for the seafarer but rather makes a simple, 
straightforward process into a highly complicated procedure 
that would make it guaranteed that the seafarer would never be 
able to take advantage of it. It would be as, Professor 
Nordquist's written statement said, the equivalent of our U.S. 
Tax Code in complexity.
    Now we don't want to change a simple procedure that is 
understandable by anybody, that doesn't require judicial 
determination and can be understood whether you speak English 
or not, to be changed to this complex issue that even I have 
trouble understanding, and I am a lawyer.
    Mr. Oberstar. Well, I understand that the Royal Caribbean 
and Norweigian Cruise Lines have respectively reached 
settlement agreements in class action cases for $18.4 million 
and $25 million respectively. How would this due process 
language work in such--if you could bring a class action suit?
    Mr. Nordquist. Mr. Oberstar, you wouldn't have that 
extraordinarily complex litigation when you are talking about 
5,000, 10,000 litigants if there would have been a fair process 
in place to begin with. That is, if a wage earner is due money 
and he notifies his payer, the payer is only given 60 days and 
he has got to pay that money or put it in escrow, and there are 
lots of ways that pay disputes are settled short of going into 
that kind of litigation.
    Mr. Oberstar. Does that individual have a shop steward on 
the ship to defend him and back him up with the captain?
    Mr. Nordquist. I am not sure there is uniform practices 
about that.
    Mr. Oberstar. I know in the days before the Steelworkers 
Union in the ore mines in northern Minnesota, if you complained 
about something, if the mining boss didn't like it, he sent you 
home; and that was it. And they had spies in the--we called 
them stool pigeons--in the barber shops and in the pool halls 
and in the libraries to see what books the men took out because 
they might be taking out something subversive about how to 
organize a union; and if they had just a little snitch, bang, 
you are out.
    Then we got the Steelworkers Union; and my father, frankly, 
was the first one to join--card number one, 1937.
    Then they had someone to stand up for them.
    If you are on board a ship and do not have an union and you 
don't have an organization and have someone to back you, and 
you are from land's end someplace and you do not speak English 
very well, and you do not read it very well, and they want to 
hang you, they can do it.
    Mr. Nordquist. Under the Maritime Labor Convention, if a 
seaman is in a U.S. Port, even if he/she is a foreign seaman, 
there is a requirement to comply with its judicial settlement 
terms. They can be enforced by the Coast Guard.
    There are a lot of things that we need to do to improve 
from what you outlined, and I respect very much the distance we 
have come. There is a lot of room for commonality here. I am 
not sure there is that much disagreement.
    Mr. Oberstar. Thank you. Luis Bonanos, by the way, was 
fired for having a not quite clean enough pot in his locker.
    Mr. Stevenson.
    Mr. Stevenson. Thank you, sir. Just from the practice in 
the cruise industry, not every cruise line has collective 
bargaining agreements. Some do and some don't.
    And some international unions in foreign countries are not 
the same type of unions that you would understand in the iron 
fields in Minnesota. Some unions are nothing more than hiring 
halls for replacement agencies for seafarers.
    Now I go back: What is due process? What does a seafarer do 
in this situation?
    That is what the value of the Penalty Wage Act has been 
over the years, since 1790, where seafarers have known, when 
they come to the United States, there is some hope of justice. 
They may not be able to afford counsel to litigate a case 
because when you look at the cost of litigation in the United 
States, that is another issue that we want to look at. But they 
knew that there was a penalty wage statute that said any 
seafarer on a ship that takes on or discharges cargo in the 
United States, the courts of the United States are open and 
there will be a 2-day penalty for every day of delay to 
encourage ship owners to make sure they are paying their 
seafarers on time.
    Another way of looking at this is, perhaps these class 
action suits have demonstrated that the cruise lines involved 
were not deterred by that 2-day penalty for every day of delay. 
And maybe another solution would be to raise the penalty to 3 
or 4 days' penalty. That is another way we can look at it.
    But the cards are all in the ship owners' hands. They are 
the ones who can determine how much the seafarer is getting 
paid. They are the ones who can make sure the seafarers are 
getting paid; and they, as an industry, can set an industry-
wide standard of conduct to make sure that seafarers' rights 
are protected in that industry, to dispel all of these bad past 
practices we are talking about.
    Mr. Oberstar. That is exactly what concerns me is, the deck 
is stacked against the worker. The ship owner has great power. 
In this draft discussion, draft bill there is a proposal for a 
statute of limitation on wage claims. They would propose 3 
years from the date of commencement of the voyage.
    Now, Professor Nordquist, you are from a very distinguished 
institution, Mr. Jefferson's university, on which there was a 
great program the other night on the History Channel. It was 
wonderful. I will be diverting if I go into discussion of it. 
You should get it and see it, the brilliance of Jefferson.
    But I do not think he would have agreed that the statute of 
limitation should run from the commencement of the voyage, but 
rather from the date that the claim arose. Is that not the way 
you usually do?
    Mr. Nordquist. To be very direct, the principle of the 
statute of limitations is what is important, and it ought to be 
a clear event to trigger it. In the Fair Labor Standards Act 
they have a 3-year statute of limitations for where there is 
willful misconduct.
    Mr. Oberstar. When does it start running?
    Mr. Nordquist. From the time the dispute arises.
    Mr. Oberstar. But not from the commencement of the voyage?
    Mr. Nordquist. No. They tailored this to their 
circumstances.
    The important point is that there is no change to the 
penalty in the law under the proposed amendments. There is a 
proposed 3-year statute of limitations. If 3-1/4 years is 
better, you know, I cannot offer any judgment on it.
    I do think that there is a very sound reason that virtually 
every other aspect of American law has a statute of 
limitations. The reason is that after a certain period of time, 
you simply cannot get justice.
    Mr. Oberstar. I agree, but, Mr. Stevenson, should that time 
start running from the date you get on board the ship or should 
it start running from the time of the infraction?
    Mr. Stevenson. Well, if there is a statute of limitation, 
obviously the time of commencement of any statute of 
limitations should be the time the injured party has knowledge 
of the injury or should have had knowledge of the injury.
    I mean, this case that is proposed by the cruise industry 
is that the statute of limitations would begin from the time 
the seafarer started working on the ship, before--there could 
be months or a year before anything happened.
    Mr. Oberstar. It just does not make any sense at all. That 
is abusive.
    Mr. Stevenson. But it has not been a problem actually in 
the past, without having a statute of limitation. The law of 
laches, the equitable principle of laches, has worked quite 
effectively in the very few cases that ever come to court 
underthe Penalty Wage Act. So I am not certain that is a 
necessity for the change.
    I think all of the changes taken together show there is a 
lot more study that needs to be done in every single one of 
these provisions before it is enacted.
    Mr. Oberstar. Now, the draft legislation also would--it 
seems to me, would stop class action cases by requiring an 
employee to provide 180 days' notice. Is that your reading?
    Mr. Nordquist. That would be the longer of the two periods, 
yes.
    Mr. Oberstar. Well, there are many other questions about 
this draft legislation, and I just I think it is really 
oppressive on the worker. And if we were to be enamored of the 
wages and hour law in the U.S. That is time-and-a-half for 
overtime over 40 hours. Steelworkers even negotiated time-and-
a-half for over 8 hours; that was a major breakthrough. It took 
us 200 years in the Industrial Revolution to get to a 10-hour 
workday. That was 1910. And then it took another 25 years to 
get to an 8-hour workday. And now, in the cruise lines, it has 
gone to 70 hours and to 100 hours.
    Body circadian rhythms haven't changed in 50,000 years, and 
I do not know how people do that. I do not know how they 
perform underthose circumstances. But when they sign on, they 
ought at least to have justice on their side. And I do not 
think this language in here provides a path to justice.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. We are supposed to have votes in about 15 
minutes. It is my intention to wind this up at this time. I 
have tried to be very generous with the allotment of time to 
ask questions.
    If anybody has additional questions, we will be happy to 
accommodate, but we are going to wrap this up before the votes 
I can promise you.
    Okay, seeing no more questions, the meeting is adjourned.
    [Whereupon, at 4:46 p.m., the subcommittee was adjourned.]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]






</pre></body></html>
